No.

IN THE
SUPREME COURT OF THE UNITED STATES

ROBERTO MENDOZA-SÁNCHEZ,
Petitioner,
v.
UNITED STATES,
Respondent.

AFFIDAVIT OF TIMELY FILING BY MAIL
I, Christine DeMaso, on oath, depose and say:
1.

I submit this affidavit in accordance with Rule 29.2 of this Court.

2.

The petition for writ of certiorari enclosed herein is being sent via first
class mail, postage prepaid today, September 25, 2020 to:
Clerk
Supreme Court of the United States
1 First Street, N.E.
Washington, D.C. 20543

3.

The mailing is within the permitted time for the petition for

certiorari. Made this 25th day of September 2020 under the
penalties of perjury.

Christine DeMaso

